“No:

IN THE
SUPREME COURT OF THE UNITED STATES

STEPHEN CUMMINGS

VS.

JAMES CAMERON, LIGHTSTORM ENTERTAINMENT INC., SONY PICTURES INC.,
PARAMOUNT PICTURES CORP., PARAMOUNT HOME ENTERTAINMENT INC.,
TWENTIETH CENTURY FOX FILM CORP., DOLBY LABORATORIES INC.

PROOF OF SERVICE
_, do hereby swear or declare that on this date,
, 2021, as required by Supreme Court Rule 29 I have
i T
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS/FINANCIAL AFFIDAVIT, and (PETITION FOR EXTRAORDINARY WRIT,
and/or, PETITION FOR WRIT OF CERTIORARI, and/or, PETITION FOR WRIT OF
MANDAMUS, and/or, PETITION FOR WRIT OF PROHIBITION), on each party to the above
proceeding or that party’s council, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to -each-of-them-and-with first class postage prepaid, r by deliver.y_to.a .third-party____
commercial carrier for delivery within 3 calendar days.

I,

The names and addresses of those served are as follows:

JAMES CAMERON, LIGHTSTORM ENTERTAINMENT INC., SONY PICTURES INC.,
PARAMOUNT PICTURES CORP., PARAMOUNT HOME ENTERTAINMENT INC.,
TWENTIETH CENTURY FOX FILM CORP.,
Via their counsel(s):
Mark D Litvack
Pillsbury Winthrop Shaw Pittman LLP
725 South Figueroa Street Suite 2800
Los Angeles, CA 90017-5406
213-488-7100
Fax: 213-629-1033
Email: mark.litvack@pillsburylaw.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
Michael Richard Kreiner
Pillsbury Winthrop Shaw Pittman LLP
725 South Figueroa Street Suite 2800
Los Angeles, CA 90017-5406
213-488-7100
Fax: 213-629-1033
Email: michael.kreiner@pillsburylaw.com
A TTORNEY TO BE NOTICED
Nathan M Spatz
Pillsbury Winthrop Shaw Pittman LLP
725 South Figueroa Street Suite 2800
Los Angeles, CA 90017-5406
213-488-7100
Fax: 213-629-1033
Email: nathan.spatz@pillsburylaw.com
A TTORNEY TO BE NOTICED
Thomas R. Julin
Gunster, Yoakley & Stewart, PA
600 Brickell Ave Ste 3500
Miami, FL 33131
305-376-6007

Fax: 305-376-6010
Email: tjulin@gunster.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
And
DOLBY LABORATORIES INC., via their counsel(s):
Charles C Correll, Jr
King and Spalding LLP
50 California Street Suite 3300
San Francisco, CA 94111
415-318-1209
Fax: 415-318-1300
Email: ccorrell@kslaw.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
Samuel R Diamant
King and Spalding LLP
50 California Street, Suite 3300
San Francisco, CA 94111

415-318-1222
Fax:415-318-1300
Email: sdiamant@kslaw.com
A TTORNEY TO BE NOTICED

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

_, 2021.

a
Signature

CERTIFICATION

As per Rule 33.2(b), I hereby certify and declare that this Brief complies with word
limitations, and is 21 pages, and contains 4,877 words.

Stephen R Cummings
Petitioner Pro-se
Date : July 9, 2021

